      ADVISORY REPORT

       COSTS CLAIMED BY THE
  COMMONWEALTH OF VIRGINIA,
    DEPARTMENT OF GAME AND
      INLAND FISHERIES, UNDER
  FEDERAL AID GRANTS FROM THE
  U.S. FISH AND WILDLIFE SERVICE
                FROM
     JULY 1, 1997 TO JUNE 30, 1999




SEPTEMBER 2002    Report No. 2002-E-0009
                                                                           X-GR-FWS-0024-2002


            United States Department of the Interior
                      OFFICE OF INSPECTOR GENERAL
                                  Washington, D.C. 20240




                                                                            September 4 2002



                               ADVISORY REPORT

Memorandum

To:        Director
           U. S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Final Advisory Report on Costs Claimed by the Commonwealth of Virginia,
           Department of Game and Inland Fisheries, Under Federal Aid Grants from the
           U.S. Fish and Wildlife Service from July 1, 1997 to June 30, 1999
           (No. 2002-E-0009

                                      Introduction
        This report presents the results of our performance of procedures to review another
audit agency’s work related to costs claimed by the Commonwealth of Virginia, Department
of Game and Inland Fisheries (Department), under Federal Aid grants from the U.S. Fish and
Wildlife Service (FWS), for the period July 1, 1997 to June 30, 1999.

Background and Scope

        The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C. 669) and the
Federal Aid in Sport Fish Restoration Act, as amended (16 U.S.C. 777), (the Acts), authorize
FWS to provide Federal assistance grants to the states to enhance their sport fish and wildlife
programs. The Acts provide for FWS to reimburse the states for up to 75 percent of all
eligible costs incurred under the grants. The Acts specify that state hunting and fishing
license revenues cannot be used for any purpose other than activities or the administration of
the state’s fish and game agencies. In addition, FWS also provides grants to the states under
the Clean Vessel Act and the Endangered Species Act.

       In March 2000, another audit agency initiated an audit of Federal Aid Program grants
and payments awarded by the U.S. Fish and Wildlife Service to the Commonwealth of
Virginia for fiscal years 1998 and 1999. The scope of its audit work, as stated in its
announcement letter to the Department, was to evaluate (1) the adequacy of the Department’s
accounting system and related internal controls; (2) the accuracy and eligibility of the direct
and indirect costs claimed by the Department under the Federal Aid grant agreements with
FWS; (3) the adequacy and reliability of the Department’s hunting and fishing license fees
collection and disbursement process; and (4) the adequacy of the Department’s purchasing
system and related internal controls. The audit was also to include an analysis of other issues
considered to be sensitive and/or significant to FWS. The audit work at the Department
covered claims totaling $29.7 million on FWS grants that were open during the Department’s
fiscal years ended June 30, 1997 and 1998 (see the Appendix). The audit agency’s
agreement with the FWS expired before issuance of its final report to the Commonwealth of
Virginia and the Department was not provided with a draft report.

        From 1996 through September 2001, the audit agency conducted audits of Federal
Aid grants under a reimbursable agreement with FWS. The FWS did not renew or extend its
agreement with the other audit agency. At the time of expiration, final audit reports on
several uncompleted audits had not been issued and were in various stages of the audit and
reporting processes. The other audit agency indicated in a September 28, 2001
memorandum that its supervisors had not reviewed all of the working papers to ensure that
(1) sufficient, competent and relevant evidence was obtained, (2) evidential matter contained
in the working papers adequately supported the audit findings, and (3) sound auditing
techniques and judgment were used throughout the audit.

        On September 20, 2001, FWS and the Department of the Interior (DOI) Office of
Inspector General (OIG) entered into an Intra-Departmental Agreement under which FWS
requested the OIG to (1) review the audit work performed by the audit agency including its
working papers, summaries and draft reports and (2) issue reports on the findings that were
supported by the working papers. Accordingly, our review was limited to performing the
procedures set forth in the Intra-Departmental Agreement and our conclusions presented in
the report are limited to findings substantiated by the working papers. We did not perform
any additional audit work of the Department’s records, and the limited work performed under
these procedures does not constitute an audit by the OIG in accordance with Generally
Accepted Government Auditing Standards.

                                   Results of Review
        The audit agency’s working papers demonstrated that the Department’s accounting
system and related internal controls in effect during fiscal years 1998 and 1999 were
adequate for the accumulation and reporting of costs under Federal Aid grants. The working
papers also concluded that the Department’s other systems and related internal controls in
effect during the audit period related to purchasing, distribution of labor costs, grant
compliance, certification of the accuracy of the number of hunting and fishing licenses,
billing of grant costs, and supporting in-kind contributions, and its required assent legislation
were adequate for Federal Aid participation. In addition, the working papers indicated that:



                                                2
   •   The Department needs to institute improved procedures for asset management to
       properly account for and control equipment purchased with Federal Aid assistance.

   •   The Department had incurred costs in excess of the individual project budgets
       established by the consolidated grant on five of its consolidated grant segments.

A. Asset Management

        While the Department maintains a listing of assets that were purchased with Federal
Aid assistance, the working papers noted that most of the computer equipment on the
inventory listing were no longer in use and had been sent to a warehouse for disposition. The
inventory listing, however, did not reflect the relocation of the equipment. In addition, the
working papers noted that some equipment on site either did not have a state identification
tag or the tag was faded and/or illegible.

Recommendation

         We recommend that FWS ensure that the Department conducts a physical inventory
of all listed assets and reconciles any differences to adjust the listing for property that was
disposed of or transferred. In addition, the Department should establish controls to ensure
that all items have legible identification tags.

Department’s Response

        The Department stated that it had created a position to cover the reconciliation of the
Fixed Assets Accounting and Control System, surplus property, and the disposal of property.
 The initial duties of the incumbent will be to conduct an on-site physical inventory of all
Departmental assets, to reconcile any differences to the property system, and to ensure that
legible tags are on equipment. The Department stated that it hopes to have the process
completed by the end of calendar year 2002.

Office of Inspector General Comments

      The actions identified by the Department are sufficient to resolve the asset
management deficiencies.

B. Consolidated Grants

        Consolidated grants provide funds for multiple projects, each with separate budgets,
under one grant agreement. The Federal Aid Manual requires prior FWS approval for
changes to the project budgets. For consolidated Grant No. WE-99-R-7, the Department’s
costs exceeded the approved project budgets by $337,191 during fiscal year 1998. While the
working papers indicate that the Department did not seek FWS approval or request an
amendment to the grant to deviate from the project budgets, the grant agreement for fiscal
year 1999 contained a statement that authorized the Department to claim costs on an overall

                                                3
grant basis. Specifically, the Other Grant Provisions section of the agreement included the
statement, “Pending resolution of national policy clarification, the required level of cost
accounting for this grant will be at the grant agreement level.”

        An FWS Region 5 official added that the grant is a wildlife survey project and the
estimated budget was used by the Regional Federal Aid staff only “to establish the
substantiality issues of the grant segment”. The Regional official further stated that, “Since
1990, we have required the State to cost account at the grant level for grant WE-99-R.”
Since the Regional Office has authorized the Department to account for costs at the overall
grant level, no exceptions were taken because the total costs of all the projects under this
grant did not exceed the total approved grant amount.

Department’s Response

        The Department stated that pursuant to instructions from Region 5, the Department
has for a number of years accounted at the grant level and for that reason, they dispute the
fact that the Department had overspent “at all or ever.” The Department added that they
“stand ready, as we always have, to comply with the applicable cost accounting rule set forth
by USFWS, whatever that rule may turn out to be.”

       An FWS Region 5 official stated in the transmittal memorandum that, “The
Consolidated Grant – Level of Cost Accounting issue will be resolved when the U.S. Fish
and Wildlife Service issues our much awaited level of cost accounting policy.”

Office of Inspector General Comments

       The FWS has identified this issue as one of the Federal Aid policy issues that it plans
to address on a national basis. Therefore, a further response to this recommendation is not
required.
       In accordance with the Department Manual (360 DM 5.3), please provide us with
your written comments by February 4, 2003, regarding the issues discussed in this report. If
you have any questions regarding this report, please contact Mr. Gary Dail, Federal
Assistance Audit Coordinator at (703) 487-8011.

       This Advisory Report is intended solely for the use of grant officials of the U.S. Fish
and Wildlife Service, and is not intended for, and should not be used by anyone who is not
cognizant of the procedures that were applied and agreed to the sufficiency of those
procedures.

cc: Regional Director, Region 5
    U.S. Fish and Wildlife




                                               4
                                                             APPENDIX

VIRGINIA DEPARTMENT OF GAME AND INLAND FISHERIES
             SCHEDULE OF GRANT COSTS
          JULY 1, 1997, THROUGH JUNE 30, 1999

   GRANT     GRANT          AMOUNT            FEDERAL
 AGREEMENT   BUDGET         CLAIMED            SHARE
HIP-1             $75,000           $58,806        $58,806
E-2-6              65,867            65,867         52,000
E-2-7              42,000            47,456         37,000
E-2-8              74,222            88,647         52,705
F-99-D-1        2,644,500         2,695,602        800,000
F-105-D-27         85,880            85,880         64,410
F-105-D-28        122,151           122,151         91,613
F-105-D-29        197,218           197,218        147,914
F-105-D-30         69,606            69,606         52,204
F-105-D-31        201,000           208,938        150,750
F-105-D-32        109,340            83,838         62,878
F-107-D-6         458,000           409,831        307,373
F-107-D-7         330,000           278,205        208,654
F-107-D-8         400,000           369,729        277,298
F-109-D-6         920,000           850,334        637,750
F-109-D-7         890,000           885,857        664,392
F-109-D-8         622,708           636,651        467,031
F-111-R-6       1,800,000         1,713,417      1,285,062
F-111-R-7       1,774,000         1,637,090      1,227,817
F-111-R-8         417,651           403,761        302,821
F-117-R-1         115,800            55,597         41,698
F-117-R-2          90,000            39,479         29,609
F-119-R-1         325,719            93,019         69,764
W-31-C-49         372,437           360,029        270,021
W-31-C-50         367,400           307,037        230,278
W-31-C-51         375,000           324,206        243,155
W-48-D-38       3,086,720         2,916,374      2,187,280
W-48-D-39       2,290,000         1,976,113      1,482,085
W-48-D-40       1,634,344         1,652,836      1,225,758
W-64-S-17       1,125,000         1,126,089        843,750
W-64-S-18         980,924         1,055,304        735,693
W-64-S-19       1,000,000         1,108,532        750,000
WE-99-R-6       2,114,725         2,135,092      1,601,319
WE-99-R-7       3,067,397         2,919,845      2,189,884
WE-99-R-8       2,826,725         2,697,908      2,023,431
TOTAL         $31,271,334       $29,676,344    $20,872,203




                            5
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
